SIDLEY AUSTIN LLP
ONE SOUTH DEARBORN STREET
CHICAGO, IL 60603
+1 312 853 7000
+1 312 853 7036 FAX
+1 312 853 7875
TFLINT@SIDLEY.COM
AMERICA • ASIA PACIFIC • EUROPE

October 28, 2020
Honorable Scott Harris
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Chad F. Wolf, et al. v. Cook County, Illinois, et al., No. 20-450

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 7,
2020, and the response is currently due on November 9, 2020.
Under Rule 30.4 of the Rules of this Court, Respondents Illinois Coalition for Immigrant
and Refugee Rights, Inc. and Cook County, Illinois respectfully request a 30-day extension of
time, to and including December 9, 2020, within which to file their response.
The undersigned counsel have a variety of obligations before various courts that would
make it difficult to complete the response by the current deadline. These matters include: briefs
filed on October 16, 2020 in the district court proceedings in this case, Cook County, Illinois, et
al. v. Wolf, No. 19-cv-6334 (N.D. Ill.); a brief filed on October 16, 2020 in Somers v. Beiersdorf,
No. 20-55541 (9th Cir.); a brief due on December 9, 2020 in Palos Community Hospital v.
Humana Insurance Co., No. 126008 (Ill. Sup. Ct.); and a petition for certiorari in Quatrone v.
Gannett Co., Inc., No. 19-1212 (4th Cir.). Petitioners consent to the requested extension.
Thank you for your consideration of this request.

Sidley Austin LLP is a limited liability partnership practicing in affiliation with other Sidley Austin partnerships.

Page 2
Respectfully submitted,
/s/ Tacy F. Flint
Tacy F. Flint*
Counsel for Respondent
Illinois Coalition for Immigrant and Refugee
Rights, Inc.

/s/ David E. Morrison
David E. Morrison
Counsel for Respondent
Cook County, Illinois

*Counsel of Record

CC:

Jeffrey B. Wall, SupremeCtBriefs@usdoj.gov
Sopan Joshi, Sopan.Joshi@usdoj.gov
Benjamin Snyder, Benjamin.Snyder@usdoj.gov

